Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




AFDC PRE-ELIGIBILITY VERIFICATION
           MEASURES




               AUGUST 1993
                      OFFICE      OF INSPECTOR            GENERAL


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE      OF AUDIT         SERVICES


The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE      OF INVESTIGATIONS


The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

ATLANTA REGION                                       HEADQUARTERS

Peggy Daniel, Project Leader                         Emilie Baebel
Betty Apt                                            Susan HardWick
Joe Townsel                                          Dave Wright
Jackie Watkins                                       Ruth Folchman

For additional copies of this report, please contact the Atlanta Regional Office at 404-331-
4108.
Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




AFDC PRE-ELIGIBILITY VERIFICATION
           MEASURES
              EXECUTIVE                           SUMMARY


PURPOSE

Todetermine     how fraud detection measures required by the 1988 Family Support Act
affected States’ pre-eligibility verification activities to prevent inappropriate Aid to
Families with Dependent        Children.

BACKGROUND

The Aid to Families with Dependent      Children (AFDC) program, Title IV-A of the
Social Security Act, provides financial assistance to families with children who are
deprived of support due to death, absence, or disability of at least one parent. Some
families with children deprived of support due to unemployment      of the principal wage
earner may also receive AFDC assistance.

States must follow Title IV-A regulations for determining AFDC eligibility.
Inappropriate   AFDC payments are caused by both agency and client (applicant and
recipient) errors. Agency errors occur when a State fails to act properly on known
information.   Client errors may result from an applicant’s or recipient’s unintentional
misrepresentation of circumstances or intentional misrepresentation.     Intentionally
withholding or misrepresenting facts may be considered fraud.

Section 605 of the 1988 Family Support Act required States to establish pre-eligibility
fraud detection measures by October 1, 1989. Further, the implementing Federal
regulations required States to annually evaluate the effectiveness of their measures
and provide a written report of their evaluations to the Administration for Children
and Families (ACF). The first reports were due by February 15, 1991.

FINDINGS

The 1988 Family Supprt Act had M& q@ct on State activitiesfor preventing
inapproptite MDC pqments

Only nine States changed or adopted fraud detection measures following passage of
the Act because States believed their verification measures already in place met the
Act’s requirements. ACF’S implementing regulations were broadly written, allowing
States to use their existing pre-eligibility verification as fraud detection measures.

States W not routinely use all commonly accepted pre-ehkibility verification measures

Most States verified income and assets through computer matches and wage
statements--one of three commonly used types of pre-eligibility verification measures.



                                              i
States said they did not consistently use two other types of verification measures, third-
party follow-up and investigative staff, because of (1) limited resources, and (2)
concern that it would delay application processing. States must adhere to a federally
mandated standard of promptness that requires eligible applicants receive AFDC
payments within 45 days from the date of application.

Some States did not evaluute pm-eligibility verification measures

Twelve States in Federal Fiscal Year (FY) 1990 and 18 in Federal FY 1991 did not
evaluate their pre-eligibility verification measures as required. Ten of the 12 States
that did not perform required evaluations in FY 1990 also did not do so in FY 1991.

States told us they did not evaluate their pre-eligibility verification measures because
(1) it required too much time to track the measures, and (2) ACF’S reporting
requirements focused only on measuring effectiveness of fraud investigative units. The
required format for reporting was not applicable to pre-eligibility measures most
States use, such as computer matches.

RECOMMENDATIONS

The Family Support Act of 1988 did not achieve its intended purpose of improving
pre-eligibility verification to detect inappropriate AFDC payments. We continue to
believe that significant opportunities exist to reduce fraud and inappropriate payments
through strong pre-eligibility review systems. However, under ACF’S regulations,
States can comply with the legislative requirements without actually improving their
pre-eligibility verification systems. We also discovered a major disconnect between
regulations which prescribed no specific pre-eligibility verification activities and
evaluation reporting requirements that focused only on measuring the effectiveness of
fraud investigative units. Even more important, the current reporting requirements
fail to provide ACF the information it needs to make management judgments about
the effectiveness of specific pre-eligibility measures or to advise States about how to
improve them. Therefore, we recommend that ACF:

1.	     Revise its evaluation reporting requirements to make them applicable to all
        canmonly used types of pre-eligibility verification measures, not just fraud
        investigative units.

2.	     Require States to periodically evaluate their pre-eligibility programs and report
        the results to ACF, and ensure that they do so.

3.	     Conduct or sponsor its own independent     evaluations of State pre-eligibility
        programs.

 4.	    Provide States with information on effective pre-eligibility verification measures,
        based on States’ evaluation reports and ACF’S own independent evaluations of
        States’ pre-eligibility programs.



                                              ii
AGENCY COMMENTS


The Acting Assistant Secretary for Children and Families commented on the report.

The ACFconcurred with30f our4 recommendations.             Itdidnot  concur with our

recommendation to revise evaluation reporting requirements to make them applicable

to all commonly used types of pre-eligibility verification measures, rather than just to

fraud investigative units. The ACF noted in its comments that the first year

experience with the evaluations did not provide pertinent information about successful

practices States use. This is consistent with our finding that the evaluation

requirements are not applicable to commonly used types of pre-eligibility verification

measures, and the evaluations did not produce useful information for either ACF or

States.


We support ACF’S plans to use State demonstration         projects to evaluate the impact of
various verification measures.     However, it will be several years before the results of
such an evaluation are available. In the interim, we believe that ACF should collect
data on the effectiveness of verification measures commonly used by States. Such data
serves as performance    indicators and provides important trend information to program
managers at the Federal, State, and Local level.




                                              . ..
                                             111
                    TABLE                    OF CONTENTS
                                                                                                                                 PAGE

EXECUTIVE       suMMARY


INTRODUCHON            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..o.          .o””” Q”1


FINDINGS      ............................................                                               ..”” ”””-””4
   Family Support Act Had Little Effect On

   State Activities For Preventing Inappropriate

   AFDC Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .OO. .O”””S                                      4


   States Did Not Routinely Use All Commonly

   Accepted Pre-Eligibility Verification Measures                      . . . . . . . . . . . . . . . . . . . . . . . . . 5


   Some States Did Not Evaluate Effectiveness of

   Pre-Eligibility Verification Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8



RECOMMENDATIONS                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11



AGENCY COMMENTS                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12



APPENDICES

   A.	 Pre-Eligibility Fraud Detection Measures and
       Reporting Requirements      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

   B. Agency Comments              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1



TABLES

   1.     Computer Matches UsedbyStates      ........                        .......       ...   .   .   .   .   .   .   .   .   .   ...5

   2.     Third-Party Follow-Up UsedbyStates    .....                        .......       ...   .   .   .   .   .   .   .   .   .   . ..6

   3.     Number of States Not Evaluating Verification                       Measures       ..   .   .   .   .   .   .   .   .   .   . . . 8

   4.     Number of States Reporting Late . . . . . . . .                    .......       ...   .   .   .   .   .   .   .   .   .   ..10

                         INTRODUCTION

PURPOSE

To determine how fraud detection measures required by the 1988 Family Support Act
affected States pre-eligibility verification activities to prevent inappropriate Aid to
Families with Dependent Children.


BACKGROUND

AFDC Bogram

The Aid to Families with Dependent Children (AFDC) program, Title IV-A of the
Social Security Act, provides financial assistance to families with children who are
deprived of support due to death, absence, or disability of at least one parent. Some
families with children deprived of support due to unemployment of the principal wage
earner may also receive AFDC assistance.

Within the Department of Health and Human Selvices (HHS), the Administration for
Children and Families (ACF) has Federal responsibility for AFDC. States administer
the AFDC program through local offices--either district, county, or city. Program costs
are shared by Federal and State governments. The Federal government pays50
percent of the administrative costs and a percentage of the AFDC payments. The
percentage varies by State and is determined by a formula using Department of
Commerce statistics. Generally, poorer States receive a larger Federal contribution
than affluent States for AFDC payments. In some States, counties pay part of the
non-Federal portion of AFDC payments.

Although States must follow Title IV-A regulations for determining AFDC eligibility,
administrative procedures vary from State to State. Generally, the regulations require
that applicants complete an application, and caseworkers verify information on the
application to determine eligibility and amount of financial assistance. Caseworkers do
this by (1) thoroughly interviewing applicants, (2) examining documents, such as birth
certificates and social security cards, (3) checking third-party sources, such as talking to
neighbors about an applicant’s household composition, and (4) running computer
matches with State departments of labor to document wages and unemployment
benefits. Title IV-A regulations require that recipients report any event that might
affect AFDC payments, such as marriage or change in income.




                                             1

Lwpppriate    AFDC Payments

Inappropriate AFDC payments are caused by both agency and client (AFDC applicant
and recipient) errors. Agency errors occur when a State fails to act properly on
known information. Client errors occur when an applicant or recipient fails to
accurately report facts which might affect AFDC payments.

Client errors may result from an applicant’s or recipient’s unintentional
misrepresentation of circumstances or intentional misrepresentation.      Intentionally
withholding or misrepresenting facts may be considered fraud.

Because of concern over inappropriate payments, ACF requires States to operate a
quality control (QC) program. Using Federal guidelines, State reviewers examine a
statistically valid sample of cases to determine accuracy of payments and eligibility
decisions. Federal QC reviewers assess the correctness of State findings by re-
examining a sub-sample of the State sample. Differences between the State and
Federal findings are then reconciled to produce an official State error rate. States use
QC reviews     to determine the cause of errors and design corrective action plans.

Potential for Preventing Inappropriate PaymenB

In November 1987, we reported on States’ investigation of fraud in the AFDC
program. We found that States expend considerable effort and resources to detect
overpayments and prosecute suspected fraud. However, we also found that front-end
verification activities to prevent inappropriate payments prior to establishing eligibility
are more effective than attempts to recover overpayments. We, therefore,
recommended that ACF, formerly the Family Support Administration, revise
regulations to require States to implement a pre-eligibility fraud detection and
prevention program as a condition of State plan approval.

Congress included the recommendation in Section 605 of the 1988 Family Support
Act, Public Law 100-485. This Act amended the Social Security Act to require States
to establish pre-eligibility fraud detection measures by October 1, 1989.

Evaluation of Pre-Eli’’lility Verification Measures’ Effectiveness

ACF Federal regulations require AFDC State agencies to evaluate the effectiveness of
their pre-eligibility fraud detection verification measures each Federal fiscal year.
Written copies of the evaluation reports must be submitted to ACF regional offices by
February 15 of the following Federal fiscal year. The first reports were due February
15, 1991.

 For each pre-eligibility verification measure contained in a State plan, the evaluation
 has to contain at a minimum the

 1)     number of suspected fraud cases identified,


                                               2
2)     number of identified fraud cases that are investigated,

3)	    number of the investigated fraud cases that are found to be ineligible, and the
       number to be eligible for a reduced grant amount, and

4)	    total projected monthly dollar savings resulting from reduced grants and cases
       found to be ineligible.

Additionally, the evaluation report has to contain a brief narrative assessment of the
relative effectiveness of each pre-eligibility verification measure used by a State. The
assessment is to be based on the numbers reported in items 1-4 above. States can
also use other evaluation methods to support their assessments. Appendix A contains
the June 12, 1990 evaluation reporting requirements ACF issued to States.


SCOPE AND METHODODGY

We surveyed all 50 States and the District of Columbial to identi~ pre-eligibility
verification measures used to prevent inappropriate AFDC payments. We did not
separate State pre-eligibility verification measures to distinguish those used to detect
unintentional or intentional (fraud) misrepresentation of applicant eligibility
information. States generally do not distinguish the measures by type of
misrepresentation because an effective measure will detect either type (unintentional
and intentional).

We mailed a standardized questionnaire to all 51 States on July 15, 1992. A total of
50 States returned completed questionnaires by December 10, 1992. As needed, we
conducted telephone interviews with State AFDC staff to obtain clarification of and
elaboration on their responses to the mailed questionnaire.

We interviewed staff from ACF and the American Public Welfare Association
(APWA)--an advocacy organization of which all State welfare agencies are members.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




    lFor convenience in summarizing survey results, we considered the District of
Columbia as a 51st State.


                                             3
                                 FINDINGS


THE 1988 FAMILY SUPPORT ACT HAD LITTLE EFFIKX ON STATE

ACrMTIES FOR PREVENTIN G INAPPROPRIATE AFDC PAYMENTS


The 1988 Family Support Act required States to have “appropriate measures to detect

fraudulent applications for aid to families with dependent children prior to the

establishment of such aid.” However, most States made essentially no changes to their

existing eligibility and fraud detection techniques following the Act.


Prior to passage of the Act, States generally conducted computer matches and

followed up with third parties as needed to verify conditions of eligibility. For

example, States conducted computer matches with Department of Labor and other

State and Federal databases. When applicant-provided information was questionable,

States followed up with third parties, such as employers. Also, 26 States used pre-

eligibility investigative staff to conduct home visits to explore cases with questionable

information.


After passage of the Act, only nine States changed or adopted pre-eligibility

verification measures. Six of the nine States that adopted new measures added

computer matches with additional agencies, two added pre-eligibility investigative units,

and one added a profile of error prone cases based on quality control data. Before

the Act, 38 States conducted computer matches with IRS. The same 38 States

conducted computer matches after passage of the Act.


The States made little changes to their pre-eligibility verification measures because

States already had measures in place which they believed met the requirements of the

Act. The implementing regulations were broadly written, allowing States to use a

range of fraud detection measures that could be tailored to their own needs and

circumstances. ACF’S regulations did not require a particular program, but gave

examples of what many States were already doing. Such examples included, but were

not limited to, automated data matches to establish the accuracy of statements on

applications, use of error prone profiles, home visits or third-party contacts, credit

bureau inquiries, and training on investigative interviewing techniques. The wording in

the regulations was widely interpreted by States as allowing them to continue as in the

past without changing any procedures or techniques. To satisfy the requirements of

the regulations, States now just label pre-eligibility verification as “fraud detection

measures.” One State agency program official made the following statement.


       The regulations do not require or mandate an early fraud [detection]
       program at all, but rather require a mere description of existing
       measures used to verify eligibility and to report annually to DHHS on
       their effectiveness. In effect, they [the regulations] mandate a study and
       an annual report, rather than a program.



                                             4

STATES DID NOT ROUTINELY USE ALL COMMONLY ACCEPTED PRE-
ELIGIBILITY VERIFICATION MEASURES

Collectively, States used three different types of pre-eligibility verification measures to
prevent inappropriate AFDC payments. The measures were (1) computer matches
with Federal and State databases to verify income and assets, (2) follow-up with third
parties, such as employers, neighbors, and landlords, to verify income, residence, and
household composition, and (3) investigative staff to conduct field visits to verify
conditions of eligibility.

Most States verified income and assets through computer matches and wage
statements. They verified other conditions of eligibility, such as household
composition and identity, by examining birth certificates and social security cards.
States did little follow-up through contacts with third parties and home visits to veri~
applicant-provided eligibility information.

Comyx.u& Matches Vi         Ihcome and AsseB

States used computer matches to verify an applicant’s income and assets. The
computer matches included the Income and Eligibility Verification System (IEVS).
The IEVS, mandated by Congress in the Deficit Reduction Act of 1984, was a
computer matching system that included matches with Federal and State databases
and other public assistance files. For example, computer matches with Social Security
Administration wage records and State employment agencies verified and detected
reported and unreported income. Motor vehicle and credit bureau matches verified
and detected applicants’ assets. Internal Revenue Service matches detected unearned
income, such as interest and dividends. Table 1 shows computer matches States
commonly used to verify income and assets. States used one or more of the eight
types of computer matches. Four States used all eight of the computer matches.

                                       TABLE 1
                          COMPUTER MA’17HES USED BY STATES

                                                            STATES          STATES THAT
           COMPUTER MA’lrHEs                                THAT USED       USED ON-LINE
           (’To verifyincome and assets)                    MEASURE         MATCHING

II   UNEMPLOYMENT       COMPENSATION           *        I     47        138



11 STATE   VEIERANS     ADMINETRATION                   19              /1



II BENDEX(So&l security benefits and earnings)*         I     43        125

II   STATE EMPLOYMENT        AGENCY        *            I     42        I     33

II   INTERNAL   REVENUE     SERVICE*                                    I     19




                                                   5

lkhi-P@y    Cbntacts Vini!fiConditiims of El&i.bility,But Are Rarely Used

States rarely verified applicant-provided information with third parties. Nine States or
less routinely followed up using third parties to verify applicant-provided information
to prevent inappropriate AFDC payments. Most States conducted third-party
verification of eligibility conditions on an “as-needed” basis. “As-needed” means States
conducted follow-up activities only when information on an application was clearly
questionable. Follow-up with third parties usually involved (1) caseworkers asking an
applicant to bring in written documentation, such as a statement from a landlord
verifying residence, (2) caseworkers contacting a third party by phone or mail to verify
conditions of eligibility, and (3) investigative staff making home visits to
resolve inconsistent applicant information. Table 2 shows the extent that the 50 States
responding to our survey conducted follow-up with third parties.

                                         TABLE 2
                      THIRD-PARTY     FOLLOW-UP USED BY STATES

                                              STATES THAT	
                                              ROUTINELY               STATES THAT USED	
     mLLow-uP WITH THmD            PARTIES    usED FOLLOW-UP          lxx.Low-uP
     (To veri@ conditions of eligibility)     TECHNIQUES              ‘As-NEEDED”

     HOME VISllll                                  2                     34

     EMPLOYERS                                     8                     36

     NEIGHBORS                                     6                     36

 \   LANDLORDS                               19                   I      35               II

Follow-up with third parties on a routine basis was usually conducted at the time of
application or at semi-annual reviews. One State said they conducted third-party
activities monthly.

Specialized Investigative StafiAre PaWrly         Effective

Twenty-eight States had specialized investigative staff in selected counties to

investigate applicant-provided information that appeared questionable. Specialized

investigative staff made field visits to third parties, such as neighbors and landlords, to

verify questionable applicant-provided information. For example, investigative staffs

were used to confirm whether an absent parent was living in a home with children for

whom AFDC had been requested. Two of the 28 States said they added pre-eligibility

investigative staff after passage of the Act. States with investigative staff had slightly

more (about 3 percent) applications withdrawn or denied than States without

investigative units. This suggests that field work done by investigative staffs resulted in

better detection of fraudulent information reported by applicants.


The 28 States with county investigative staff included those that we had examined in

our original study in 1987. The investigators continue to be effective in detecting

fraudulent application information. Program staff associated with them said the units



                                              6
are effective partly because they can make unannounced home visits. Also, they said
the effectiveness of the investigative units is evidenced by a quick turnaround on
referrals--usually within one week. The effectiveness of the investigative units is
further indicated by the number of counties in one State that has formed such units.
Since 1987, the number of counties in that State increased from 23 to 46.

Reasom S@e.s Did Not Routinely Use All Commonly Acceptid he-eligibility V&rijication
Measures

States said they did not routinely use third-party follow-up and investigative staff for
pre-eligibility verification because of (1) limited resources and (2) compliance with a
45-day processing standard for AFDC payments.

State agency program officials said limited resources, such as State budget cuts,
prevent staff from verifying much of the applicant-provided information that could
affect their AFDC eligibility. State agency program officials said State budget cuts
have caused staff shortages, thereby increasing eligibility workers’ caseloads. To
illustrate, one county AFDC program official reported an AFDC caseload increase of
40 percent, while the AFDC staff decreased by 10 percent. Further, APWA figures
show an average national AFDC caseload growth of 29.1 percent for the period July
1989 through August 1992. The growth in AFDC cases for individual States ranged
from 2.2 percent to over 100 percent during that period.

State AFDC program officials also said they did not routinely use measures such as
third-party follow-up because they could not allow pre-eligibility verification to delay
application processing. States must adhere to a federally mandated standard of
promptness. This standard requires that applicants must receive AFDC payments
within 45 days from the date of application. In most instances, disposition of an
application must be processed within 30 days to allow time for printing and mailing
checks.

Compliance with the 45-day standard places a certain amount of pressure on States
and counties to accept applicant-provided information without verification. To
illustrate, at least two States have been sued due to untimely processing of AFDC
applications. In one of the two States, a court order required that counties accept an
applicant’s written statement regarding a number of eligibility factors. In this State,
fiscal penalties were tied to a county’s average processing time and percentage of
applications processed within the time standard. In the other State, a new policy was
initiated on “minimal verification” at intake. This State now only verifies social
security numbers, earned income, and pregnancy.




                                             7

SOME STATES DID NOT EVALUATE PRIMLIGIBILITY VERIFICATION
MEASURES

The ACF implementing regulations for the Family Support Act require States to
annually evaluate the effectiveness of their pre-eligibility verification measures.
However, about one-fourth of the States did not evaluate their pre-eligibility
verifications in Federal Fiscal Year (FY) 1990 and about one-third did not evaluate in
Federal FY 1991. Table 3 shows the number of States not evaluating their measures
in each year.

                                       TABLE 3
                        THE NUMBER OF STATES NOT EVALUATING
                          VERIFICATION MEASURES EACH YEAR

                                                    STATES NOT
                                                    PERFORMING ANNUAL
                 FEDERAL   FISCALYEAR               EVALUATIONS


                        1990                             12

                        1991                             18


Ten of the 12 States that did not perform required evaluations in FY 1990 also did not
do so in FY 1991.

Reasons for Not Evahatihg

States told us they did not evaluate their pre-eligibility verification measures because it
required too much time to track the measures. To illustrate the time required, three
State agency program officials furnished the following comments.

     �
          The evaluation would require (1) a case-record-by-case record       review of the
          number of AFDC rejections, (2) a determination as to whether         or not a
          rejection was a result of deliberate applicant misrepresentation,     and (3) a
          determination of which verification measure listed in the State     Plan was
          responsible for detecting any applicant misrepresentation.

     �	
          The evaluation would be extremely labor intensive and of questionable quality,
          due to the manual process that would be required and the judgmental nature of
          information to be collected. Each case technician would be required to keep
          track of whether he or she required an applicant to provide additional
          documentation, whether or not the additional documentation supported the
          applicant’s previous statements or documentation, and the fiscal impact of using
          the correct information.

�	
          The evaluation would be extremely counterproductive because the time
          involved in developing, making entries into, and maintaining such a reporting



                                               8

        system would decrease the resources available for pre-eligibility fraud detection
        measures.

Also, some State agency program officials said they did not evaluate measures because
ACF’S reporting requirements focused only on measuring effectiveness of fraud
investigative units. The required format for reporting was not applicable to pre-
eligibility measures most States use, such as computer matches. Appendix A contains
the evaluation reporting requirements.

Twenty-two of the 50 States responding to our survey did not have fraud investigative
units, and, therefore, were not able to use the mandated format. About half of the
State agency officials without fraud investigative units said no mechanisms are in place
to collect the data required by the regulations. Creating a mechanism to do so would
increase both costs and workloads disproportionately to any benefits that might be
gained from evaluating the measures.

Finally, one State agency program official said, “In short, the reporting of the activity is
in danger of becoming more important than the desired results.”

m@Y      coWOl   Reviews   Serve   as Rmy for Evaluations

States without fraud investigative units have sought other ways to evaluate their
measures. For example, States use quality control (QC) error rates to satisfi the
evaluation reporting requirements. Three State agency program officials made the
following comments about using QC data.

   �	
        “We have a built-in evaluation in the QC process and this evaluation is more
        significant than the currently mandated annual report.”

   �	
        “QC data proves that workers are utilizing the State’s pre-eligibility fraud
        detection measures and those measures are effective.”

   �
        “We have chosen to evaluate pre-eligibility fraud detection measures examining
        QC sample data for evidence that the current measures are not working and to
        identify areas where additional measures might be cost effective. Because [an]
        annual QC sample is a reasonably valid random sample of the caseload, the
        results of the evaluation should be generally reflective of the caseload as a
        whole.”

States l%oviding Lute Evaluation Reports

The ACF regulations for implementing the Family Support Act also require States to
submit a written report to ACF regional offices by February 15 of the following
Federal fiscal year, and to submit any appropriate amendments to their State plans.
However, only 38 States in FY 1990 and 32 in FY 1991 submitted a written report.



                                               9

The States that did perform required evaluations frequently     submitted the written
reports late, i.e., after February 15. For example, 20 of the   38 States (about 53
percent) who submitted reports in 1990 were late. In 1991,      15 of 32 States (about 47
percent) submitted reports late. Table 4 shows the number       of States submitting
reports late.


                                      TABLE 4
                      THE NUMBER   OF STATES REPORTING LATE
                                     r           1
                      MON’IH(S) LATE   STATES IN   STATES IN
                                         FY 1990     N 1991

                      Less than 1 month           8         5
                                          I           I
                       1-2    months              6         5
                                          I           I
                       3-4    months              1         0
                                          I           I
                       5-6    months              4         4
                                          I           1
                       7-8    months      1111
                             ‘1’OTAL      120         I     15




                                                10

                   RECOMMENDATIONS


The Family Support Act of 1988 did not achieve its intended purpose of improving
pre-eligibility verification to detect inappropriate AFDC payments. We continue to
believe that significant opportunities exist to reduce fraud and inappropriate payments
through strong pre-eligibility review systems. However, under ACF’S regulations,
States can comply with the legislative requirements without actually improving their
pre-eligibility verification systems.

We also discovered a major disconnect between regulations which prescribed no
specific pre-eligibility verification activities and evaluation reporting requirements that
focused only on measuring the effectiveness of fraud investigative units. Even more
important, the current reporting requirements fail to provide ACF the information it
needs to make management judgments about the effectiveness of specific pre-eligibility
measures or to advise States about how to improve them. Therefore, we recommend
that ACF:

1.	    Revise its evaluation reporting requirements to make them applicable to all
       commonly used types of pre-eligikil.ity verification measures, not just fraud
       investigative units. This will eliminate a technical problem that has made it
       difficult or unnecessary for States to report annually on pre-eligibility systems
       such as improved computer matching protocols.

2.	    Require States to periodically evaluate their pre-eligibility programs and report
       the results to ACF, and ensure that they do so. The simple annual reporting
       requirement now in effect does not provide the kind of information needed to
       determine which pre-eligibility verification techniques work best, and which are
       cost effective. More insightful evaluations are needed. The ACF needs to
       provide guidance to the States as to what kind of evaluative information should
       be supplied, and how often, and should assess the quality and appropriateness
       of the evaluation methodologies used.

3.	    Conduct or sponsor its own independent evaluations of State pre-eligibility
       programs. Such studies should use methodologies of sufficient rigor as to allow
       identification of approaches and techniques that are most effective in reducing
       fraud before applicants are approved for receiving benefits.

4.	    Provide States with information on effective pre-eligibility verification measures,
       based on States’ evaluation reports and ACF’S own independent evaluations of
       States’ pre-eligibility programs. States must use the most effective ways to
       prevent inappropriate payments in the AFDC program. With the new
       administration streamlining welfare policy by focusing on work requirements
       and limiting benefit periods, attention to eligibility will be increasingly
       important.
                   AGENCY                  COMMENTS


We circulated the draft report for   comment to the Acting     Assistant Secretary for
Children and Families (ACF), the     Assistant Secretary for   Management and Budget
(ASMB), and the Acting Assistant      Secretary for Planning   and Evaluation (ASPE).
Appendix B shows the full text of    the comments provided      by ACF. ASMB and ASPE
did not comment on the report.

The ACF concurred with 3 of our 4 recommendations.         It did not concur with our
recommendation to revise evaluation reporting requirements to make them applicable
to all commonly used types of pre-eligibility verification measures, rather than just to
fraud investigative units. The ACF noted in its comments that the first year
experience with the evaluations did not provide pertinent information about successful
practices States use. This is consistent with our finding that the evaluation
requirements are not applicable to commonly used types of pre-eligibility verification
measures, and the evaluations did not produce useful information for either ACF or
States.

We support ACF’S plans to use State demonstration projects to evaluate the impact of
various verification methods. However, it will be several years before the results of
such an evaluation are available. In the interim, we believe that ACF should collect
data on the effectiveness of verification measures commonly used by States. Such data
serves as performance indicators and provides important trend information to program
managers at the Federal, State, and Local level.




                                             12

PRIZ-ELIGIBILITY
               FRAUD DET’IWHON MEASURES AND REPORTING
                     REQUIREMENTS




                         A-1
                                                                                 .. .   .




with



                              I     flEGF                ...---~:
                              i----
                              I
                                         -“”   ---   ‘




TU            .
              �        STATE ADMINIS~~E     AND OTEER INTEREST=
                       ORGANIZA~ONS  AND AGZNCI=

SUE3ECT       �
              �        Pre-Eligibility Fraud Dete-ian
                       Measures and Reportfig RequL-ements

RELATED

              ..
REFERENCES
       ~               45 CFR 235.3-11
              ..       On Aprii 20, 1989 an Inter& Final
BACKGROUND
                       Rule was published in the FED=     REGIS=

                       that provided for (1) the estili~mt      of

                       pre-eligibility fraud detection measures, and

                        (2) an annual evaluation of the effectiwess

                       of the pre-eligtiilitY fraud detection

                       process.

REPORTING

~NsTRU~IQNS        :   In accordance with 45 CFR 235.111 (c), the
                       State agency is required ea make a writt=
                       evaluation for each Federal fiscal year of
                       “de effectiveness of its v=eification
                       measures and submit a copy of the evaluation
                       to the FSA Regional Office by February L5 “af
                       the following Federal fiscal year. The firs=

                       ot these reports (the one for FY L990) * due

                       in the FSA Region2& Office by F*~         L5J
                       199L.

                       The repo*  must cantain ab a.dnimUIU th=
                       fallowing ixzfo-tion   for eack af *   p­
                       eLigibilitY verifi=tiom   meas~    oanx~
                       in the State plan:

                        (1)  The n-er          of suspe-=           fraud case
                        identified.
,
    .
                                                       -   . . . .. ---..>   -—   -—’--   “




                                    -,



                                                                                  z





                           (4) The total praj ected ~on~    dollar

                           amouna resulting f~om reduced grants and

                           cases found ta be ineligible.


                           In  addition, the repart mus& cantain a hrie~
                           narrative assessment of the relative
                           ef factiveness of each of the pre-eligib ility
                           verification measures contained in the Sta=e
                           plan. This assessment should be based on ‘&e

                           &zmbers reported above.   Collateral

                           information and other evaluation methods

                           be used, but are nok required.


        ATTACHMENT     :   Final Rule


                           October 1, 1989


        INQUIRIES TO   :   Regional Administrators,   FSA





                                         4’Zason Turner

                                           Directar

                                          Office af FadLy           Assistance

APPENDIX      B



 AGENCY COMMENTS




       B-1
        .                       dr,rtui~    ML.I    L ok   tit   wi   ii & HL 31%,N SERL ICES
.       ;
         ; J
          %+%g                                               m                 ~
    t      %bm                                                                               f
                                                             mm                              /
                                                             DIG--@                                        ADMINISTRATION FOR CHILDREN AND FAMILiI
                                                             S)l&~               ~                         Office of the AssistantSecretary,Suite 600
                                                                 D1&bl           ~                         370 L’Enfant Promenade, S.W.
                                                                 J@4isP                                    Washington, D.C.20447
                                                                 @/lG                                                                                ..
                                                                 ~Em                                                                                 =.
                   DATE :
                                                                 -slim           %                                                        =
                                                                                                                                          ->
                                                                                                                                                     -71
                                                                                                                                                     m
                                   by      26,     1993,                                                                                   -J
                                                                                                                                                      r> m
                                                                                                                                           -:.- ~;, m ~
                   TO:                  Bryan     B.       Mitchell                                                                        ‘A .:? c+ ~
                                        Principal           Dep	                                                                           N        ‘i -. m
                                                                                                                                            a      ‘-~-A--.
                   FROM:                Laurence      J. Lo                                                                                  --- - .:(~,~
                                                                                                                                              -.        ,,> u
                                        Acting    Assis
                                           for   Children                and     Families                                                   ?.pR
                                                                                                                                                        ?A=>
                                                                                                                                             Z
                   SUBJECT :             Comments          on      the     OIG       Draft       Report    Entitled     ‘AFDC Pre-
                                        Eligibility                Verification              Measures,lS        OEI-O4-9I-OO1OO

                   We have   reviewed      the subject     report   and offer the following
                   comments    with   regard     to the recommendations.      We also    have some
                   technical comments         and suggestions     for your consideration      in
                   preparing    the final      report.



                   1.	         That      ACF revise       its             evaluation        reporting       requirements             to
                               make them       applicable                  to all      commonly        used   types    of     pre-
                               eligibility        verification                     measures~       not    just fraud
                               investigative          units.

                   ACF co mment

                   We do not concur, because the first year~s experience did not
                   provide pertinent information regarding successful practices. AS

                   an alternative to revising our reporting requirements, we are

                   examining replacing the reporting requirements with state

                   demonstration projects that will include rigorous evaluation

                   designs to assure that valid conclusions can be made on the

                   effectiveness of pre-eligibility fraud detection measures.

                                   .
                   OIG Rec~endatlm

                   2.	         That ACF require States to periodically evaluate their pre­

                               .digibilitygmqrams   and repo~ the resullw.~o-.

                                                                              ACF.,-d                                                                     ,

                                                                                                                                                        .,,,
                               @XWXY3-’thLUt

                                           they do ~0-                                                                                                 -.


                   ACF         co~ent


                   We cmcur.   It is our practice to provide feedback to States.
                   However, the first year’s experience did not provide pertinent

                   and useful informatim.   As mentioned in eur =omments to

                   recommendation 1, we are considering carefully designed State
                   demonstration projects that will provide productive information,

                   and at the same time, be less burdensome on the States.





           --.—”         ---
                                                                                                              .,            .
                 Page 2 - Bryan B. Mitchell                                                                                     ..



                 OIG Recommendatio~

                 3.	     That  ACF conduct         or     sponsor       its    own    independent evaluations                            “
                         of State  pre-eligibility                  programs.

                 w F Comment

                 We concur.

                 OIG Recomm endation

                 4.	    That ACF provide States with information on effective

                        pre-eligibility verification measures, based on States’

                        evaluation reports and ACFIS own independent evaluations of
                         States!       pre-eligibility           programs.

                 ACF   C o IIUU
                              ent

                 We concur, however, the information obtained from the  first
                 year’s experience did not provide pertinent and useful
                 information regarding effective practices on pre-eligibility
                 verification measures. As indicated in our comments to
                 recommendation 1, we are considering carefully designed State

                 demonstration projects that will enable us to provide States with

                 information on effective measures.


                 Te c hn ical       Comments

                 1.
     First full          paragraph        under      ‘9RECOMXBNDATIONS,~’           page      ii.       The
                         third       sentence       of this       paragraph       states:        ‘However,        ~d=
                         ACFQS regulations,                States       can comply        with     the  legislative
                         requirements            without       actually       improving        their    pre-
                         eligibility          verification            systems.m         This     is incorrect.              The
                         regulations           at 45 CFR 235.111(c)               require        State     agencies         to
                         subnti’t     appropriate          plan     amendments        to the       ACF Regional
                      Office based on the findings ef the annual evaluation. The
                      clear regulatory expectation is that if the annual
                      evaluation shows that certain measures are ineffective in
                      preventing fraud, the State agency will take corrective

A..
      ..              action to remedy the deficiency.

                        ,.- .:!
                             :...,’.,.,

                                 .,,
                                   ..
...
                                        . .                                .... .

           -.<
                 2.
 .Y~fiZ-:q~&aph          under -~==~=      ~9e 40 ~e”+cond      .:.

                      ‘andtiird sentences sta~ thatz ‘The implementing

                      regulations were broadly written, allowing States to use a

                      range of fraud detection measures that could be tailored to

                      their own needs and circumstances. ACFfs regulations did

                      not require a particular ~rogram, but gave examples of what

                      many States were already doing.” These statements neglect

                      to point out that the statutory language of section

                      402(a) (45) of the Social Security Act is imprecise and only

                      calls for States to implement ‘appropriate measures*’to





       ... —-——.                                                                                                   .. . .            .
.




            Page 3-           Bryan B. Mitchell


                   detect      fraudulent        applications.          The examples    included in

                   oux regulations            at 45 CFR 235.ill(b)           (2) were rell~le

                   measures       that    a number        of States     found effective      m

                   identifying         ineligible         applications.         Specifying ~datoq      ‘

                   measures in these regulations was inappropriate since there

                          Wmagic bullets w with respect to techni~es or

                   ~oc~dures for detecting fraudulent applications. We

                   suggest that you revise this paragraph to include the

                   aforementioned                  points.

            If   you   have            any  our comments or if we can be of
                                               Cpestions     about
            further assistance, please do not hesitate to call.




                       ..”.
                         .,              . .
    .   .

                              ,..                               .
                                .. .
